                                                 u.s. SMALL BUSINESS ADMINISTRATION 

                                                        OFFICE OF INSPECTOR GENERAL 




                                                                                 ADVISORY MEMORANDUM
                                                                                 REPORT   No. 11-17

DATE:                 SEPTEMBER    26, 2011

To:                   James E. Rivera
                      Associate Administrator for Disaster Assistance
                      lsi Original Signed
From:                 John K. Needham
                      Assistant Inspector General for Auditing

SUBJECT:              Release of Collateral by SBA's Disaster Processing and Disbursement Center Raises Concerns

This is to notify you that we identified an issue during our review of the Release of Collateral by the
Processing and Disbursement Center (PDC). The issue concerns whether the proceeds from a sale of
damaged property in a relocation should be retained by SBA.

This review was initiated because of issues identified in our recent Audit of Release of Collateral by the
Disaster Loan Servicing Centers, Report No. 11-15, issued June 3, 2011. During the audit of the servicing
centers, we observed questionable collateral release decisions made by the PDC and later executed by
the Agency's servicing centers. For three of these collateral releases, the borrowers had relocated and
sold the damaged property, however, the Agency did not retain the land value portion, totaling $93,000,
                                                  1
of the sale proceeds for the disaster properties.

Our objective was to determine whether the decisions made by the PDC to release collateral properties
were in the best interests of the agency and taxpayers. We interviewed agency officials and selected for
testing a random sample of collateral release decisions made between April 1, 2009 and March 31, 2011
to determine the extent they complied with SBA policy. The universe sampled for this review contained
few relocation loans. We reviewed Disaster Credit Management System data, as well as Electronic Loan
Information Processing Systems accounting entries for the sample of collateral release decisions. We
conducted the review between May 2011 and July 2011 in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the United States.

Results

Of the 37 collateral releases that we reviewed during this review, only 3 involved relocations. From
these three, we observed a questionable collateral release decision made by the PDC. In this case, the
Agency did not retain all of the net proceeds from the sale of the damaged properties, totaling $15,000.
Between this review and the earlier audit, we noted four exceptions totaling $108,000.



1   We did not include this issue in Report No. 11-15 because the audit scope was limited to the collateral release decisions made
     by the Disaster Loans Servicing Centers.
The Agency has based its position for not retaining all net proceeds upon the premise that these funds
                                             2
did not constitute a duplication of benefits. This justification, however, does not appear to be relevant
because the loan authorization requires proceeds from the sale of collateral to be used to pay down the
loan balance. Chapter 4 of SOP 50 3D, which addresses the sale of the damaged property involving
relocations, states that collateral should have a IIdue on sale" clause. The loan authorizations, for each
of the loans, contained such a clause which required the borrower to submit lIall net proceeds from any
sale of the disaster damaged real estate to reduce the outstanding balance of this loan." Therefore, the
expectation is that proceeds from the sale of the damaged property is to be used to pay down the
outstanding loan balance. The SOP does not contain a provision permitting the borrower to retain any
portion of the sale proceeds from collateral.

Conclusion

Should the Agency experience a disaster resulting in a high number of relocations, in which the damaged
property is taken as collateral, there is a risk that the Agency will not recover some proceeds from the
sale of damaged properties. The practice of considering duplication of benefits as the determinant of
whether or not to obtain the sales proceeds from the sale of damaged properties is of concern, because
collateral release decisions should protect the Agency's interests as a creditor. Between this review and
the earlier audit, we found that the agency has incorrectly allowed four borrowers to retain a total of
$108,000 that should have been used to pay down the SBA loans.

Recommendation

We recommend that the Associate Administrator for Disaster Assistance:

       1. 	 Provide official written notification to the PDC to discontinue the practice of considering
            duplication of benefits as the determinant of whether or not to obtain the sales proceeds from
            the sale of damaged properties.

Agency Comments and Office of Inspector General Response

On September 2, 2011, we provided the Office of Disaster Assistance (aDA) with the draft report for
comment. On September 19, 2011, aDA submitted its formal response which is contained in
Appendix I.

Agency Comments

aDA stated that it would ensure the PDC provides justification for any decision not to require the
borrower to submit all proceeds from the sale of the disaster damaged property.




2   Section 312 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act (42 U.S.c. 5155), amended in June 2007,
     requires the Federal Government to ensure that no person or entity be provided disaster assistance if he or she has received
    financial assistance under any other program or from insurance or any other source.



                                                                 2

OIG Response

Management's comments are not responsive to the recommendation. As stated in this advisory
memorandum, SBA's SOP and the loan authorization do not contain any provision that would allow the
borrower to retain any portion of the sale proceeds from collateral. Additionally, management's
comments do not specifically address discontinuing the practice of using duplication of benefits as the
determining factor. Instead, it provides leeway to utilize the duplicate benefits consideration as its
justification to allow the borrower to retain sales proceeds from disaster damaged property.

Actions Required

Please provide your management decision for the recommendation on the attached SBA Form 1824,
Recommendation Action Sheet, within 180 days from the date of this memorandum. Your decision
should identify the specific action(s) taken or planned for the recommendation and the target date(s) for
completion. We appreciate the courtesy and cooperation of the Office of Disaster Assistance during the
audit. If you have any questions regarding this memorandum, please contact me at (202) 205-7390 or
Craig Hickok, Director, Disaster Assistance Group, at (817) 684-5341.




                                                    3

Appendix I. Agency Response




                                      U.S. SMALL 8USINE:SS ACMINISTRATION 

                                                     WASWNCTON, D.C.        20~ IG 





     Date:                    1   ~

     To:


     From: 	           James Rivera
                       Associate AdminIstrator
                       Office of Dis aster Assistance

                               Memorandum - Release of Collateral   SBA's Disaster                         1'f()'CC1iSUllg   and
                       Disbursement Center Raises 	               No. Il


     We have reviewed the              memorandum reE~anlm.g                                           the
     t'r()CeS51ng and Disbursement Center                                  was to detenllillC whether the
     decisions made      tl1 e POC to release collateral J)r')J)(;.rtlICS were in the best h1terest ofthe agency
     and T'nn"~,vp,~

     OIG Recommendation

     We rcc01mnend that the Associate Administrator for Disaster Assistance:

                                  ",,",,'ifi,'ahi,",,,   to Ihe PDC to digC01!tinue the 	
                                                                                                                             'he




     We                                                                                                      the Borrower
     to submit all net ",.,or<'(>It                                         dnmr,a~'lf re{~l   estate to redz<ce




           [FOIA ex. 6]

     James R. Rivera
